                                                                                                                r
                                                                                                                :




                                                   AUDIT OF 

                                   504 LOAN PROGRAM OVERSIGHT 


                                              WASHINGTON, DC 


                                          AUDIT REPORT NO. 3-10 


                                              FEBRUARY 6, 2003 





        The findings in this report are the conclusion of the OIG's Auditing Division based on testing of SBA
        operations. The findings and recommendations are subject to review, management decision, and
        corrective action in accordance with existing Agency procedures for follow-up and resolution. This
        report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
        released to the public or another agency without permission of the Office of Inspector General.



                                                                                                                I

_VI'"
                                                                                                    I
                                                                                                    I

                       US SMALL BUSINESS ADMINISTRATION 

                          OFFICE OF INSPECTOR GENERAL 

                                Washington, DC 20416 





                                                                 AUDIT REPORT 

                                                          ISSUE DATE: February 6, 2003 

                                                             REPORT NUMBER: 3-10 





To:           Janet Tasker, Associate Administrator
               ~1e der Oversight

From:         Robert G. Seabrooks, Assistant Inspector General
               for Auditing

SUbject:      Audit of 504 Loan Program Oversight

       Attached is a copy of the subject audit report. The report contains two findings and three
recommendations addressed to your office. Corrective actions addressing the recommendations
have been completed, are in process, or are planned for the near future.

        The recommendations in this audit report are based on the conclusions of the Auditing
Division. The recommendations are subject to review, management decision and action by your
otlice in accordance with existing Agency procedures for audit follow-up and resolution.

      Please provide us your management response for each recommendation within 30 days.
Your management decisions should be recorded on the attached SBA Forms 1824,
"Recommendation Action Sheet," and show your proposed corrective action and target date for
completion.

       Any questions or discussion of the findings and recommendations contained in the report
should be directed to Garry Duncan, Director, Credit Programs Group, at (202) 205-7732.


Attachment
                                                           AUDIT REPORT 

                                          504 LOAN PROGRAM OVERSIGHT 

                                                        WASHINGTON, DC 



                                                           Table of Contents

                                                                                                                                            Page

Summary....................................................................................................................................... .i

Introduction ................................................................................................................................... 1

           A.         Background ............................................................................................................. 1 


           B.         Objective ................................................................................................................. 2 


           C.         Scope and Methodology ......................................................................................... 2 


Results of Audit

Findings and Recommendations

           1.         CDC Lender Oversight Process Needs Improvement ........................................... .3 


          2.          An Oversight Review Tracking System is Needed ................................................. 6

Appendices

A - Summary of District and OIG Lender Reviews

B - Missing Elements on CDC Annual Reports

C - Management Comments

D - Report Distribution




                                                                                                                                                         ,
                                                                                                                                                        ;1




                                                                                                                                                        "
                                         SUMMARY

          The 504 Loan Program was established to foster economic development, create or
preserve job opportunities, and stimulate growth, expansion, and modernization of small
businesses. Office of Management and Budget (OMB) Circular A-129, "Policies for Federal
Credit Programs and Non-Tax Receivables", requires agencies to conduct on-site lender and
servicer reviews. The SBA Office of Lender Oversight was established in August 1999 to ensure
that the oversight system, among other things, provided a more effective means of identifying
risk to the Federal government. The agency issued Standard Operating Procedure (SOP) 50 50
4B, "Loan Policy and Program Oversight Guide for Lender Reviews" effective October 1,1999.
The guide was intended to provide operating procedures for assessing the level of compliance of
SBA's lending partners.

        The objective of the audit was to determine ifSBA's oversight of the 504 Loan Program
provided a thorough and reliable evaluation of Certified Development Companies (CDCs) to
assess and anticipate financial risk to the loan portfolio.

       Although the 504 Loan Program appears to be operating efficiently, as evidenced by a
low default rate, we identified areas of program oversight that could be improved. Specifically:

       ~ 	 SBA  oversight did not adequately address financial risk and incomplete annual
           reports were used in compliance reviews.
       ~   Lender oversight reviews were not tracked to ensure accomplishment once every
           three years.

        We recommended that the Associate Administrator for Lender Oversight (AAJLO) take
action to design a separate review guide for the 504 Loan Program, ensure annual reports
submitted by CDCs are complete, and implement a review tracking system.

       The ANLO agreed to develop a review guide specific to the needs and requirements of
the 504 Loan Program. The response indicated that a new tracking system for monitoring
oversight reviews has already been implemented. The AAJLO proposed that the Office of
Lender Oversight rather than district offices assure annual reports are complete (see Appendix
C).




                                                1
                                                                                                I

                                                                                                I

                                   INTRODUCTION

A. Background

         The Certified Development Company (CDC) Loan Program (504 Loan Program)
was created to give small business owners the means to expand, modernize, and compete
in the economy by providing long-term, fixed-asset fmancing. Typically, at least 10
percent of the loan proceeds are provided by the borrower, at least 50 percent by an
unguaranteed bank loan, and the remainder by an SBA-guaranteed debenture from a
CDC.

        Most CDCs are private, non-profit corporations set up to contribute to the
economic development of their communities or regions. The maximum SBA debenture
is $1 million. The minimum debenture is $50,000. Generally, projects range from
$500,000 to $1.5 million in total project costs. For every $35,000 of debenture financing
in the CDC's portfolio, SBA requires that an average of one job be created or retained
within two years of the project's funding.

        In October 1999, SBA implemented a lender oversight program for all 7(a) and
504 Loan Program delivery methods. Due to declining persounellevels and a growth in
the loan portfolio, SBA adapted its programs and procedures to rely more on the
program's lenders for operational support. This increased reliance on the lender also
increased the need for an effective SBA lender oversight program. To ensure effective
oversight an Office of Lender Oversight (aLa) was established and began risk-based
approach to oversight of SBA's lenders. In October 2000, a draft Strategic Plan was
developed to set the direction and approach for aLa.

       The aLa, a component of the Office of Capital Access, is responsible for the
lender oversight program. The oversight program is defined as a "framework through
which the SBA reviews and anticipates risks to the portfolio." The aLa monitors and
oversees SBA's lending partners to ensure they receive consistent and appropriate
supervision as they assist in the delivery of SBA programs. The aLa has two major
functions: off-site analysis ofSBA's lenders and SBA's loan portfolios and on-site lender
reviews.

        Lender performance is evaluated by using a six-section checklist composed of
application forms, eligibility, credit quality, loan authorization and closing, servicing and
liquidation actions, and oversight. Based on the scoring results, lenders are assigned one
of the following levels of compliance: "substantially in compliance," "generally in
compliance," "minimally in compliance," or "not in compliance."

        The 504 Loan Program's FY 2001 budget was $3.75 billion, making it the second
largest loan program in SBA. As of November 2000, there were 261 CDC lenders in the
program with 27,553 outstanding loans in their portfolios. The FY 2000 currency rate
was 96.5 percent, significantly higher than those of both the 7(a) and the disaster loan
programs.



                                              I

           B.     Objective

                   The objective of the audit was to determine ifSBA's Oversight of the 504 Loan
           Program accomplishes a thorough and reliable evaluation of CDCs to assess financial risk
           to the portfolio.

           C.      Scope and Methodology

                     We conducted audit fieldwork at eight district offices, ten Certified Development
           Companies, and SBA headquarters. Three of the CDCs had not been previously
           reviewed by the district office. We reviewed loans that were included in the most recent
           district office oversight reviews for the seven CDCs that had been reviewed. For the
           other three CDCs, we judgmentally selected loans to review.

                   To answer the audit objective, we obtained and reviewed annual reports and third party
           contracts for all CDCs reporting to eight district offices. We tested sevenjudgmentally selected
           SBA lender reviews, made ten site visits to CDCs and their responsible SBA district office, and
           interviewed SBA officials and CDCs' representatives. Fieldwork was performed from April
           2001 through May 2002. The audit was performed in accordance with Government Auditing
           Standards.




                                                      2



_   .. ,
                                    RESULTS OF AUDIT

FINDING 1 CDC Lender Oversight Needs Improvement

       SBA's oversight of Certified Development Companies (CDCs) did not adequately
address financial risk to, or compliance with, requirements of the 504 Loan Program.
The oversight consisted primarily of completing a checklist that was more relevant to the
7(a) Program than to the 504 Program. In addition, incomplete CDC annual reports were
used for the compliance reviews. As a result of a less than optimum oversight evaluation,
SBA was not in a position to take necessary corrective action to minimize financial risk.

Program goals

        SBA's oversight program anticipates a review of both financial and lender-based
portfolio risk. Financial risk includes composite risk posed by loans and guarantees
actually booked to SBA's portfolio as well as historical loan performance. Lender-based
risk includes (i) loans that the lender has recently made and will be making, (ii) loans
already booked to the SBA portfolio, and (iii) public policy risk associated with lender's
non-compliance.

Financial risks not identified

       The current CDC review process is a compliance review designed to evaluate
only the first and third elements oflender-based risk. Financial risk and the second
element oflender-based risk (loans already booked) were not assessed.

        Our analysis included reviews made by district offices for 33 loans from seven
CDCs. In each of the reviews, the district offices determined that the CDC's portfolio
posed no financial risk. This assumption was made without the benefit of considering
SBA established lender performance benchmlllks. Such performance benchmarks were               I
                                                                                               I,
established by SBA's Risk Management Committee to determine lender performance.
Since benchmarks are based directly on financial risk, their exclusion from the annual
review scoring process prevents the assessment of financial and lender-based risk. Four
of the seven CDCs failed four or more of the established benchmarks that addressed
currency, delinquency, default, liquidation, and loss rates. Failing this number of
benchmarks should have alerted district offices of potential SBA risk.

         The reviews also did not detect all of the weaknesses that should have been 

identified. SBA teams found 52 non-compliances. An OIG analysis of the same CDCs 

disclosed 246 non-compliances. In our review of the 33 loans we found three loans with 

questionable repayment ability, 22 loan files with missing credit determinations of either 

the individuals or the businesses, 11 lacking evidence that insurance requirements were 

current, and 18 instances of missing IRS verifications. Each of these deficiencies 

indicated some financial risk to the SBA. Many of these were not identified by the 

districts because the related questions had been omitted. The SBA position towards the 





                                             3
                                                                                               ti 


omitted questions was that reviewing areas that had previously been approved by SBA
would be reviewing their own work, not the CDC's.

         The differences were partially caused by the district review teams omitting 64
percent of the questions when conducting the reviews. Questions were determined to be
"not applicable" because (i) district offices were instructed not to complete section one of
the checklist for loans that were not processed as Premier Certified Lender Program
(PCLP) loans, (ii) some questions referred to forms not required in the 504 Program,
(iii) other questions were applicable only to PLP or Section 7(a) loans, and (iv)
liquidation questions were omitted.

        Appendix A summarizes the results of the District and OIG reviews.

Incomplete Annual CDC Reports

       The Code of Federal Regulations requires a CDC to submit an annual report to the
SBA district office within 90 days after the end of the CDC's fiscal year. District offices
were not ensuring that the annual reports were complete, as required by SBA guidance.
SBA procedures state that the annual reports are to be used to:

    • 	 Evaluate the CDC's performance in delivering and servicing SBA loan programs;
    • 	 identify CDC strengths and weaknesses and recommendations for improvement;
        and
    • 	 address persistent problems that have been identified without correction, set a
        final deadline for such correction(s) and, if necessary, start the decertification
        process.

        The determination as to the completeness of the annual report is a district office
responsibility. If an annual report has not been properly completed, the CDC must be
notified in writing. A completed annual report then must be submitted within 30 days. In
the case of incomplete or missing reports, SBA may cease accepting or processing loan
applications if the CDC fails to comply with the annual report requirements. SBA district
offices were accepting incomplete annual reports from the CDC's included in our review.
This included missing or incomplete exhibits or data. For example, information required
on CDC memberships and board of directors, such as phone numbers, addresses, group
represented, etc. were not always complete. There were shareholders listed who were
deceased or who had moved and left no forwarding address. Also, CDC staff members
were inappropriately serving on credit committees, financial statements were missing, or
accounting footnotes t(l the financial statements were not always included.

       The missing annual report information is summarized by district office in 

Appendix B. Of a possible 731 data elements or exhibits required to be included in the 

annual reports, 147 (20 percent) were either missing or incomplete. 





                                              4

                                                                                               r


Conclusion

        After interviewing field and program officials, we concluded that it was generally
believed that the review process needed to be redesigned to specifically address the 504
Loan Program and should be both a financial and compliance review. SBA management
stated that it intends to design a separate review for the 504 Loan Program.

Recommendations

       We recommend that the Associate Administrator for Lender Oversight take the
following actions:

        IA. Design a CDC review guide to: (i) incorporate performance aspects to address
                                                                                               I
fmancial risk; (ii) address the specific requirements of the 504 Loan Program; and
(iii) incorporate a scoring system that emphasizes the most important performance issues.

      lB. Require district offices to obtain and analyze complete annual CDC reports.

Management Comments

        The OLO agreed with recommendation lA and partially agreed with
                                                                                               I
recommendation lB. For recommendation lA, the OLO stated that the development of a
redesigned approach to CDC lender reviews was underway. For recommendation lB,                 I
management agreed to implement adequate review ofthe CDC annual reports in its
lender review process; however, did not believe it necessary to require the district offices   I
to perform this function.

Evaluation of Management Comments

        We consider management's responses to the recommendations to be adequate.
While management's response to lB did not agree with requiring district offices to
ensure the adequacy of annual reports, it did state that adequate review of annual reports
would be accomplished as part of the lender review process. The intent of the
recommendation was that an adequate review be performed to ensure that annual reports
were complete. We consider it acceptable to accomplish this through the OLO lender
review process rather than by district offices.




                                              5
FINDING 2 An Oversight Review Tracking System is needed

         SBA had not established a trackirig system to monitor CDC oversight reviews. In
FY 2000, SOP 50 50 4B established an oversight requirement that each CDC be reviewed
at least once every three years. The lack of a tracking system provides no assurance
reviews will be accomplished, as required.

Monitoring CDC Reviews

        District offices electronically submitted the results of each CDC review to a
lender oversight electronic mailbox. We found that SBA retained the electronic copy of
the reviews but did not compile the data. Therefore, management was unable to identify
which CDCs were reviewed due to the unavailability of the data. Because this
infonnation was unavailable, we could not readily detennine whether SBA was
completing a review of all CDCs at least once within the required three-year cycle.

        Establishing a system to capture the appropriate data would allow SBA to monitor
trends such as groups of questions that are continually omitted during reviews, if CDC
perfonnance is improving, common problem areas among CDCs, and whether loans in
liquidation are included in the sample and if the sample sizes are appropriate.

Recommendation

       2A.    We recommend that the Associate Administrator for Lender Oversight
              implement an oversight tracking system to monitor the scheduling and
              perfonnance of oversight reviews.

Management Comments

         The AAlLO agreed with the recommendation and stated that a tracking system        i'
has already been implemented. The tracking system identifies and tracks CDC status,
district codes, perfonnance benchmarks, review requirements, date review forwarded to
OLO, number ofloans reviewed, overall rating, and individual responses to review
questions.

Evaluation of Management Comments

       We consider the response to the recommendation acceptable.




                                            6
                                                                                 APPENDIX A




                       Summary of District and OIG Lender Reviews




                                                                                                    in
                                                                                                 compliance




                             0.0%

                                           VERSUS
                                                    il
                                                    !LOIG
                 9            9              11
                                                          0            4         9                   10

                                                                                                              I
                257           105           359           246          268      295                 188
               outoC         outoC          outoC        outoC        outoC    out of              out of
                330           255           405           330          405      405                 555
                                                                                        .   ,!                i'

                 30           38             31           41           ,4       39                   43



                                             5                             5     5                   20       j'
                                                                                                     •

Note: Passing benchmarks are as follows:
Currency Rate= 90% or higher
Delinquency Rate= 5% or lower
Loss Rate= 3% or lower
Liquidation Rate= 5% or lower
Default Rate= 9% or lower

• Minnesota District reviewed 20 loans. We reviewed 7 of those 20 loans.
                                                                               APPENDIXB                I
                                 Missing Elements on CDC Annual Reports




                "" ,

I 1.                               •      -.      T         -.-    •      •,       2       ,
                                                                                           ,     •
 2......... "'.
 3..........
                                   •
                                   •
                                           •,     T

                                                      •
                                                            -.'•   •
                                                                   •      •
                                                                                   3

                                                                                   •,      •
                                                                                                 15
                                                                                                 ,
 ...                               4       •          ,      ,     ,      •                •     ,.

 ..                                 2      ,          •      •     U      U        U       u     3


i ~.u;.;;;'
                       ,""""""
                                    •
                                    •
                                           •,     ".
                                                  "          "     U

                                                                   ,
                                                                          U
                                                                                   •       0

                                                                                           •     ,.•
i7. E• ."

                                    •     -,      --.        "     ,
                                                                          2        2


                                                                                           ,•
                                                            D             2        3             23
i·· ..· · -
                                    3
                                            •         3
                                                             •     ,               2             12

~
                                                                          2

                                    ,              ,                      ,
                                            •               -,•                                  •
                                                                   u               2       3
                                                  -,               ,               ,
i"·
I f2.
                                    •
                                    2
                                    ,
                                          -,•
                                                   ,
                                                      2     ,-     ,
                                                                   ,
                                                                          0

                                                                          •        ,
                                                                                   ,
                                                                                           0

                                                                                           0
                                                                                                 ,.,.
                                                                                                 3


                                                                                                        I
I'"~    ".."                                •                             •                0


                                                                                                        [.
  ,...........
  ...
                 -
               'REPORT


                                    3
                                            •         ,       0    u               0       0     5




                       .-                                    •
                                    3       0         2            0      0        0       0      5
                                            ,               --.    •      ,                ,
                                                                                                 ,.•
  ... .,.....In,                    2             T                                0

  17.                               ,       3
                                                      •      •     U      ,         0      ,
                  TOTAL             41     21     -,.       -.     7      19       ,.      ,.    147



                 ~                 '53     '02        '30    .     ..     102      oa      oa    731


                                   27"     .,,,   ,."        ...   ""     ,."      2'"     2.%   2.%




                                                                                                        l
                                                                                                  g:




                                                                                AppendixC
                          U.S. SMALL BUSINESS ADMINISTRATION
                                 WASHINGTON, D.C. 20416




  DATE: 	       January 28,2003
                                                                                              l
      TO: 	     Robert G. Seabrooks 

                Assistant Inspector General for Auditing 
                                    I
                                                                                              I

                                ~.LLJ~
 FROM: 	        JanetA. Tasker
                Associate Admi~;;'f~r Lender Oversight                                        I
SUBJECT:        Management Response to the Draft Audit Report of 504 Loan Program 	
                                                                                              II
                Oversight 	                                                                   r."
                                                                                              I'




                                                                                              t
                                                                                              ~
     Attached please find Management's Response to the Draft Audit Report of 504 Loan 

  Program Oversight. 


     Please call Janet Tasker at (202) 205-3049 or Felicia Smith at (202) 205-7522 should 

  you have any questions or need additional information. 



  Attachment



  cc: 	   Ronald Bew, ADA Capital Access 

          James Rivera, AAlFinanciai Assistance 

          David Frederickson, AAlField Operations 





                                                                                              I




                                                                                              l
                                                                                      Appendix C



                        MANAGEMENT RESPONSE TO
       DRAFT AUDIT REPORT OF S04 LOAN PROGRAM OVERSIGHT




FINDING 1: CDC Lender Oversight Needed Improvement

Recommendation lA: Design a CDC review guide to: (i) incorporate performance
aspects to address financial risk; (ii) address the specific requirements of the 504 loan
program; and (iii) incorporate a scoring system that emphasizes the most important
performance issues.

Program Response: Agree

The Office of Lender Oversight (OLO) agrees with the need to develop a review guide
specific to the needs and requirements of the 504 loan program. Development of a
redesigned approach to CDC lender reviews is underway. The enhanced approach will
be specific to 504 lending and will consider and evaluate a CDC's loan portfolio
performance, portfolio administration, underwriting and origination practices, servicing
activities and compliance with SBA requirements, including aunual report requirements.
A separate review guide is currently being drafted for the 504 loan program to implement
this new approach. The enhanced 504 review process will not, however, evaluate how
well District Offices accomplish their responsibilities with regard to 504 loan
underwriting and utilization of CDC aunual reports. OLO believes that its responsibility
is to review the lending practices relative to the 504 loan program. It is not within OLO's
charter to evaluate the adequacy of lending decisions and relationship management
determinations made by District Offices relative to the CDCs in their area.

It is important to note that the Office ofField Operations (OFO) conducts Quality Service
Reviews (QSR) of the District Offices. The QSR includes a review of the District
Office's performance in the underwriting and processing of 504 loan applications. QSR
reviews are also required to document that the District Office has received, reviewed and
forwarded to Headquarters all the CDC aunual reports for the CDCs assigned to their
respective office.

As part of the Agency's transformation efforts, OFO will be piloting the centralization of
504 loan processing in the Sacramento PLP Loan Processing Center. The Center's
underwriting and processing will be periodically reviewed by a team consisting of both
Capital Access and OFO staff. District Offices will continue to have the responsibility
for CDC relationship management and as such will continue to collect, review and
forward the aunuals reports to Headquarters.




                                            2
                                                                                                   i




                                                                                                   l
                                                                                    AppendixC




Recommendation IB: Require district offices to obtain and analyze complete annual
CDC reports.

Program Response: Partially Agree

The redesigned approach to revie;ws of 504 lenders will include a review and assessment
of a CDC's annual report to SBA, including its adequacy relative to SBA requirements.
OLO views its responsibility as lender oversight. District Offices are responsible for
lender relationship management. As such, the two offices use the annual CDC reports             I
for different purposes. CDCs are required to submit reports on an annual basis to SBA.          I.
OLO will assess the timeliness, adequacy and responsiveness of an individual CDC's              r
submission as part of the 504 lender review process. District Offices utilize the annual 

report in their day to day relationships with CDCs. OLO agrees with the need to have an 

adequate review of CDC annual reports and is addressing this need through the                   [

redesigned 504 lender review process. OLO does not believe that the existing                    ,

                                                                                                Ito,
requirement for CDCs to submit the annual reports needs to be modified to require
                                                                                                r
specific District Office review and analysis.
                                                                                                I
                                                                                                i
FINDING 2: An Oversight Review Tracking System is Needed
                                                                                                ,
                                                                                                i


Recommendation 2A: Recommend that the Associate Administrator for Lender
Oversight implement an oversight tracking system to monitor the scheduling and
performance ofoversight reviews.

Program Response: Agree

OLO agrees with the need to track compliance review results to ensure that reviews are
accomplished as required. In fact, OLO has already implemented a tracking system for
monitoring CDC oversight reviews. The system identifies and tracks CDC status, district
codes, performance benchmarks, review requirements, date review forwarded to OLO,
the number of loans reviewed, the overall rating and the individual responses to review
questions. This system is in place and being maintained within OLO.




                                            3
                                                                                                                APPENDIXD 





                                          Audit Report Distribution

Recipient                                                                                          Number of Copies


Associate Administrator for Lender Oversight.. ........................................................ 1 


Associate Administrator for Field Operations ........................................................... 1 


Associate Administrator for Financial Assistance ..................................................... 1 


Financial Administrative Staff................................................................................... 1 

 Attention: Jeff Brown 


General Counsel ........................................................................................................ .3 


General Accounting Office ........................................................................................ 1 

